August 14, 2020
Writer’s Direct Contact
(213) 683-9575
(213) 683-5175 FAX
erin.cox@mto.com

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

The Moodsters Company v. The Walt Disney Company, et al., No. 20-132
(on Petition for a Writ of Certiorari)

Dear Mr. Harris:
Petitioner The Moodsters Company filed a petition for a writ of certiorari in the abovecaptioned matter on August 3, 2020, and the case was placed on the Court’s docket on August 7,
2020. Because the case clearly does not warrant review by this Court (as is shown by the
decision below), respondents The Walt Disney Company, Disney Enterprises, Inc., Disney
Consumer Products and Interactive Media Inc., Disney Interactive Studios, Inc., Disney
Shopping, Inc., and Pixar waive the right to file a brief in opposition.
If the Court wishes to see a brief in opposition, we will, of course, promptly file one.
Respectfully submitted,

Erin J. Cox
cc:

Patrick M. Arenz

